<html>
<title> - WATER PROBLEMS ON THE STANDING ROCK SIOUX RESERVATION</title>
<body><pre>[Senate Hearing 108-758]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-758

         WATER PROBLEMS ON THE STANDING ROCK SIOUX RESERVATION

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   ON

  OVERSIGHT HEARING TO RECEIVED TESTIMONY ON PROBLEMS THAT HAVE BEEN 
EXPERIENCED BY THE STANDING ROCK SIOUX TRIBE AND TRIBES SITUATED ALONG 
                           THE MISSOURI RIVER

                               __________

                           NOVEMBER 18, 2004
                             WASHINGTON, DC



                    U.S. GOVERNMENT PRINTING OFFICE
97-093                      WASHINGTON : 2005
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                      COMMITTEE ON INDIAN AFFAIRS

              BEN NIGHTHORSE CAMPBELL, Colorado, Chairman

                DANIEL K. INOUYE, Hawaii, Vice Chairman

JOHN McCAIN, Arizona,                KENT CONRAD, North Dakota
PETE V. DOMENICI, New Mexico         HARRY REID, Nevada
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
ORRIN G. HATCH, Utah                 BYRON L. DORGAN, North Dakota
JAMES M. INHOFE, Oklahoma            TIM JOHNSON, South Dakota
GORDON SMITH, Oregon                 MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska

         Paul Moorehead, Majority Staff Director/Chief Counsel

        Patricia M. Zell, Minority Staff Director/Chief Counsel

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page
Statements:
    Breitzman, Dennis, area manager, Dakotas Area Office, Bureau 
      of Reclamation.............................................    10
    Claymore, Mike, chairman, Economics Committee, Standing Rock 
      Sioux Tribe................................................     1
    Conrad, Hon. Kent, U.S. Senator from North Dakota............     7
    Dorgan, Hon. Byron L., U.S. Senator from North Dakota........     5
    Ferguson, Ron, director, Division of Sanitation Facilities 
      Construction, Indian health Services.......................    12
    Grisoli, Brig. Gen. William T., commander and division 
      engineer, Northwestern Division, Army Corps of Engineers...     9
    Inouye, Hon. Daniel K., U.S. Senator from Hawaii, vice 
      chairman, Committee on Indian Affairs......................     1
    Johnson, Hon. Tim, U.S. Senator from South Dakota............     4
    Murphy, Charles W., chairman, Standing Rock Sioux Tribe......     1
    Olson, M.D., Richard, director, Division of Clinical and 
      Community Services, Indian Health Services.................    12

                                Appendix

Prepared statements:
    Breitzman, Dennis (with attachment)..........................    69
    Frazier, Harold, chairman, Cheyenne River Tribe (with 
      attachment)................................................    73
    Grisoli, Brig. Gen. William T. (with attachment).............    25
    Murphy, Charles W. (with attachment).........................    30
    Olson, M.D., Richard.........................................    29

 
         WATER PROBLEMS ON THE STANDING ROCK SIOUX RESERVATION

                              ----------                              


                      THURSDAY, NOVEMBER 18, 2004


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The committee met, pursuant to other business, at 10 a.m. 
in room 485, Russell Senate Building, Hon. Daniel K. Inouye 
(vice chairman of the committee) presiding.
    Present: Senators Inouye, Johnson, Dorgan, and Conrad.

 STATEMENT OF HON. DANIEL K. INOUYE U.S. SENATOR FROM HAWAII, 
           VICE CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    Senator Inouye. The Committee on Indian Affairs meets today 
to receive testimony on a series of problems that have been 
experienced by the Standing Rock Sioux Tribe, as well as other 
tribes whose reservations are situated along the Missouri 
River.
    In order to effectively address these problems, it will 
require the coordinated efforts of several Federal agencies. So 
that we may better understand the nature of the problems and 
the impact they have had on the lives of the members of the 
Standing Rock Sioux Tribe, I would like to call upon our first 
witness today, Charles Murphy, chairman of the Standing Rock 
Sioux Tribe. Chairman Murphy will be accompanied by Mike 
Claymore, Tribal Councilman of the Standing Rock Sioux Tribe 
Council.

 STATEMENT OF CHARLES W. MURPHY, CHAIRMAN, STANDING ROCK SIOUX 
   TRIBE, ACCOMPANIED BY MIKE CLAYMORE, CHAIRMAN, ECONOMICS 
COMMITTEE, STANDING ROCK SIOUX TRIBE; MR. PERRY, ATTORNEY; AND 
                          JIM GLAZE, 
                            ATTORNEY

    Mr. Murphy. Senator, thank you very much. First of all, we 
want to congratulate you for the election that happened a few 
days ago. But first of all, we want to thank you from the 
Standing Rock Sioux Tribe, because there are 18,000 enrolled 
members, and they send their regards up here because you're the 
Senator that helps the tribes, the Standing Rock also. We 
appreciate that.
    Also here to my left, Senator, I have Mr. Claymore, who is 
the chairman of the Economics Committee. I have two of our 
attorneys here, Mr. Perry and Jim Glaze.
    Back in 1997, Senator, you visited our reservation. There 
are some pictures here that I would like to show you. We had 
water around the reservation here, such as this, when you flew 
in there. We were talking about the erosion at that time. You 
were there, we looked at the taken area, which was 1620, it was 
eroding the highway and so forth. The Corps came in there and 
did some dike work.
    Now today, Senator, it is very serious. We don't have the 
water to provide for our people. One year ago today, or 1 year 
ago, it will be 2 weeks, 5 days before Thanksgiving, we had 
approximately 10,000 people without water. These were Indian 
and non-Indian people within our reservation of 2.3 million 
acres.
    Senator we are also scared that if it freezes, what we 
could have is like a delta. What's going to happen is that it 
will not go right into the intake. What's happening, Senator, 
is that we have people today that are scared because they don't 
know if they're going to have drinking water the next day. The 
two largest districts in our reservation will be without water 
if the water should shut off today.
    Senator, we also had a number of people, at the time we had 
lost our water, we had to send people to Bismarck, ND, which is 
about 60 miles away, that were on dialysis. Those people did 
not have transportation. We helped them with transportation, we 
helped them with their rooms up in Bismarck. The tribe did all 
this. BOR did not help, Corps of Engineers did not help, IHS 
didn't help, the BIA didn't help. We footed the whole bill, 
Senator.
    Senator, also we had tried to keep the IHS hospital open. 
They didn't even have water, they couldn't even buy a bottle of 
water for those people that were coming into the hospital. We 
had to provide that water for them. We had to buy porta-potties 
for all those districts that were out of water.
    Also, we were scared that our sewer systems were going to 
freeze up also. Mr. Claymore will tell you a little bit more 
than I will get back on another part, Senator.
    Senator Inouye. Mr. Claymore.
    Mr. Claymore. Thank you.
    I am very humbled and privileged to speak in front of the 
Senate committee today. Senator, we have a major problem out 
there with the management of the Missouri River. Drought 
conditions have changed the river's status. Lake Oahe is to me 
no longer a lake, it's back to the Missouri River situation, 
which is very scary for us as a people, because we don't know 
what channel or where that water line is going to go, where the 
river is going to channel next.
    We have the communities of Cannonball, Fort Yates, and 
Porcupine on the North Dakota side. If things would have all 
been as planned the Bureau of Reclamation would have had 
completed the projects in the future and every community in 
Standing Rock will be dependent upon this water source. That's 
a very scary thing, because with all our communities depending 
on the rural water system, if it goes down there are going to 
be a lot more people affected.
    I do have to say that it's not just our issue, it's a 
region issue. The State of North Dakota, the State of South 
Dakota are facing the same issues. They continue to have 
communities that have intake issues and they're spending 
millions of dollars to address these issues within their own 
system, within their own grounds. Because there's no way that 
anybody can say that this river is not going to be lower. 
There's no way to say that the lake is going to come up, rising 
levels.
    Back in 1948 or so, I wasn't alive, but I can tell you, my 
grandma will tell you that the people of Standing Rock thought 
there would never be a water shortage. They couldn't even 
imagine how that water would disappear. And today we are in 
that situation to know whether or not we can have a water 
shortage, and we do.
    Go ahead, Chairman. Thank you.
    Mr. Murphy. Senator, also we have people yet today that are 
filling up their bathtubs every night, our elderly people 
filling up their bathtubs every evening because they don't know 
if they are going to run out of water the next morning, because 
we don't have a way of knowing if the water is going to be shut 
off or whatever. At the time it happened, it just happened, it 
happened that Sunday night 5 days before Thanksgiving. We had 
people coming home, school kids coming back from college and so 
forth, our kids were without water. People without water.
    The other thing was that we had people going around, we had 
an elderly man with a 55-gallon drum driving from house to 
house helping people. He was telling them that this water is 
only to be flushed with, we had those types of people. People 
were working together, we had come together. We had the 
Senators from North Dakota and the representatives calling 
people to donate water to us. We had that done, too, Senator. 
It's very sad right now that we don't know if we're going to 
have water next week or not.
    [Prepared statement of Mr. Murphy appears in appendix.]
    Senator Inouye. Mr. Chairman, do we know what the cause of 
the shortage is?
    Mr. Murphy. Senator, I think they're holding water 
upstream, they're letting too much water downstream. What we 
were told is that for them to keep those barges moving in the 
State of Missouri they had to have more water down there so 
they could move those barges up and down the river.
    They are not worried about human consumption, but they are 
worried about some barges, three or four barges that they have 
to move up and down in the Kansas City area, and they're not 
worried about the people that are running out of water. Right 
now, we have another community, another Indian reservation, 
which you might know, Senator Conrad and Senator Dorgan also, 
and the representative from North Dakota also mentioned that 
Parshall, ND, the Indian reservation up there has no water. I 
mean, they have water now, but they run out of water because of 
the low water tables, too.
    Senator Inouye. In your prepared testimony, you speak of 
the construction of an inland reservoir at Fort Yates. Do you 
have any estimate as to the construction costs?
    Mr. Murphy. The estimate was about $30 million, Senator. 
What we're going to have to do is we're going to have to go 
further south to put that inlet in, where the main channel will 
provide that water, where it's more narrow and so forth.
    But right now, Senator, our inlet is right about in here. 
It's probably about four-tenths of a mile out, maybe, or three-
tenths of a mile out. The inlet right here, Senator, this is 
Fort Yates here and the inlet is right here. What's happening 
is, what we're scared of is that this thing is going to change 
here, then we're going to have to change it clear out to here 
to chase that water.
    The siltation, we had engineers out of the Minnesota area 
come out and tell us how the siltation is moving. That doesn't 
look very good, either.
    Senator Inouye. Thank you very much.
    Senator Johnson.

 STATEMENT OF HON. TIM JOHNSON, U.S. SENATOR FROM SOUTH DAKOTA

    Senator Johnson. Thank you, Vice Chairman Inouye, for 
holding this hearing, and thank you also for all you have done 
for our great plains tribes and the people of North and South 
Dakota.
    I understand that this is your last hearing as official 
leadership of the Committee on Indian Affairs, and I want you 
to know that your leadership will be missed. But knowing your 
passion for the issues, I'm confident that you will continue to 
provide important leadership for Indian country. I thank you 
for your great service.
    I also congratulate my colleague, Senator Dorgan from North 
Dakota, on the leadership role that he is going to begin to 
play on this committee.
    I want to welcome Chairman Murphy, Councilman Mike Claymore 
and other witnesses to the hearing. I also want to thank the 
representatives from Minnesosi and Chairman Frazier of the 
Cheyenne River Sioux Tribe for being here today. I'm glad that 
we have an opportunity to specifically address the water 
problem at Fort Yates. I share the concerns of my North Dakota 
colleagues regarding the issue.
    I'd like to take just 1 moment to address a similar problem 
we are facing farther south along the Missouri River. It's 
probable that in the fall of 2005 the Cheyenne River Sioux 
Tribe could be experiencing similar acute water shortages now 
facing the Indian tribes and communities of North Dakota. The 
consequences, however, could be even more pronounced, 
negatively impacting 17 communities and 14,000 people.
    The latest Corps of Engineers 2005 spring runoff forecast 
is predicted to be only 16.52 million acre feet compared to a 
normal spring runoff of 25 million acre feet. If the Missouri 
River reservoirs were not already at record low storage levels, 
such a paltry runoff forecast would not be a dangerous omen for 
2005. However, the Missouri River reservoir system contains a 
total of only 37 million acre feet of water, a full 3 million 
acre feet less than the total reservoir impoundment in the fall 
of 2003.
    The cumulative impact of successive drought years has left 
these giant reservoirs 21 million acre feet below average, a 
record. So I implore the Federal Government to take a serious 
look at the failures at Parshall, ND, Fort Yates, ND, and this 
potential crisis that would affect the Cheyenne River Sioux 
Tribe in South Dakota.
    We need to look at a preventative fix rather than just 
focusing on the crisis of the moment. One can only imagine the 
outcry if the same number of people in large urban areas of 
America lost their water for 10 days. This is a situation we 
would not tolerate in major cities and cannot allow to happen 
again anywhere in the country, whether here in Washington, DC 
or in Fort Yates, ND or White Horse, SD.
    It's particularly disconcerting given the treaties that 
bind the Federal Government's responsibilities to our tribes in 
North and South Dakota. The particular water needs in North 
Dakota that is being described so ably by the chairman here 
today involves the municipal, rural and industrial water system 
that is operated pursuant to the Garrison Diversion 
Reformulation Act of 1986, and the Dakota Water Resources Act 
of 2000. Under the Dakota Water Resources Act, the Department 
of the Interior is mandated to construct, operate, and maintain 
an MR&I water supply system for the Standing Rock Sioux 
Reservation. Legal title to the water system is held by the 
Bureau of Reclamation.
    To have this failure at this point and not to have a 
permanent fix underway is a cause of great concern. We need to 
end the crisis mentality and approach this from a permanent fix 
mind set. I am confident that this committee can play a key 
role in helping us to do that for both our friends in North and 
South Dakota.
    Thank you, Mr. Chairman.
    Senator Inouye. Thank you very much.
    Senator Dorgan.

   STATEMENT OF HON. BYRON L. DORGAN U.S. SENATOR FROM NORTH 
                             DAKOTA

    Senator Dorgan. Mr. Chairman, thank you very much.
    First of all, we appreciate your holding this hearing. I 
appreciate Chairman Murphy and Mr. Claymore, thank you for 
being here and thanks for your statements.
    This is a vexing problem, difficult, wrenching for the 
people who are affected. We are talking today about the 
Standing Rock Reservation and the citizens of Fort Yates and 
the surrounding area. But this also affects Parshall, Fort 
Yates, ND, and Wakpala, SD, this is a significant issue. When 
the water was lost over Thanksgiving, the folks in Fort Yates 
canceled their Thanksgiving plans, they spent all their time 
trying to figure out how to get safe water for their families 
to drink.
    Let me commend the chairman and the tribal council for the 
extraordinary work you did during a real crisis. Losing water 
is a real crisis. I have previously said to Dennis Breitzman, 
who we will hear testify in a few minutes, that the folks who 
work at the Bureau, they just picked up and over the whole 
Thanksgiving period they were down there working to try to put 
in a temporary line. And we owe them a debt of gratitude for 
the work they did. They worked through the holiday, day and 
night, and put in that line.
    But I was down there 2 weeks ago. Mr. Chairman, I think you 
have this sheet, three graphs or three slides, rather, from the 
end. You will see where the old intake was, you will see where 
the new intake is. As of 2 weeks ago, it is quite clear, that 
they are going to be out of water, even the new intake is not 
going to provide water for those people.
    So the question is, what is going to happen here? How is 
this going to be resolved? Because this river is shrinking and 
drying up. When you stand on the bank where the old intake used 
to be and just look out, this is a puddle. This river has 
become a puddle right at Fort Yates where the intake is. And I 
am convinced that these folks are going to lose water again.
    Now, there are a lot of reasons for all of this. Probably 
the most important is that we've had less snow pack and less 
water in the entire reservoir system. But that is not the only 
reason. I regret to say that the Corps of Engineers has been 
extraordinarily hard headed on the issues of dealing with the 
water in the entire Missouri River system. The upper reaches of 
that system have been systematically cheated in the manner in 
which that river has been managed. I use that word fully 
understanding what it means. We have been systematically 
cheated for a long period of time.
    As you can see from these slides, we are going to need to 
find water to assure municipal water supply, not just for Fort 
Yates, especially for Fort Yates, however, and we need to do so 
quickly. That is why I am pleased that we have the Corps here 
to testify.
    Let me also say that the tribe spent a great deal of money, 
of its own money, trying to respond to this crisis. Some of 
those resources, $2.8 million, my colleague and I asked 
Commissioner Keyes to reprogram some money so we got some money 
back to the Tribe to recompense them for that expenditure. But 
they are still out a lot of money as a result of this crisis. 
We also need to work with the Bureau and the Corps to try to 
respond to that.
    But let me conclude by saying this. Senator Conrad and 
Congressman Pomeroy and I have been fighting this battle for a 
long, long while. And it is one of the most frustrating fights 
that we have had. As all of you know, the water policies are 
very controversial. How the reservoir systems and the river, 
the Missouri River, are managed, is critical for a whole range 
of issues, for the minnow of a barge industry, the whale of the 
recreation, tourism, and fishing industry up north, and yes, it 
is a minnow to a whale and yet we manage the river for the 
benefit of the minnow.
    It is just enormously frustrating for us. Somehow, some 
way, we need to resolve it. I do not intend to be partisan at 
all, but let me observe that this fight that we've had, 
especially dealing with the State of Missouri, is a fight that 
has not resulted in a fair use of water in this river system 
when we are short of water. And at least one part of that is 
because the President, campaigning in Missouri, said, I am with 
you on this water fight. So did the Vice President.
    As a result, we have been systematically blocked here in 
Congress in resolving this issue. That's not partisanship, that 
is just the fact. My hope is that the President, the Congress, 
Republicans, and Democrats, and all of us, can understand that 
when you run out of water, that is a human crisis. We need 
finally to resolve and address this issue.
    My colleagues, Senator Johnson and Senator Daschle, have 
worked enormously hard on this. I have worked with my 
colleagues Senator Conrad and Congressman Pomeroy. All of us 
are determined to fight this to the end so that we get a result 
that is fair to everybody who lives on that river.
    Mr. Chairman, I am sorry I took as much time as I did. But 
I think this is a critically important issue.
    Senator Inouye. Senator Conrad.

 STATEMENT OF HON. KENT CONRAD, U.S. SENATOR FROM NORTH DAKOTA

    Senator Conrad. Thank you, Mr. Chairman.
    Before I address the issue at hand, I want to thank you, 
Senator Inouye, for your long leadership of this committee. I 
must say, I'm in my 18th year here. There is no better Senator 
than Senator Inouye. Your compassion and your courage and your 
really exceptional leadership of this committee is deeply 
appreciated. I don't know of anybody that made the 
extraordinary effort that you have made to go all over this 
country to understand better the needs of Native people.
    Your record and your legacy will be written in the record 
books of the U.S. Senate and in the history books of this 
country. You will have a very proud position.
    I also want to thank you very much for holding this 
hearing, as perhaps your last act as the vice chairman of this 
committee before you go to become the Ranking Member of the 
very powerful Commerce Committee. I know you will still be here 
as our member, but you will be passing the leadership torch to 
my colleague, Senator Dorgan. Again, I just want to say how 
deeply we appreciate the quality of your leadership.
    I want to extend a welcome to Chairman Murphy and 
Councilman Mike Claymore from Standing Rock. I regret I was not 
here, I was doing the C-SPAN broadcast this morning. All of us 
are asked to do that from time to time, as you know, Members of 
Congress, so that people around the country can ask questions 
of us. And of course, the debt limit of the United States was 
extended yesterday, so I was asked in my role on the Budget 
Committee to visit with people around the country this morning.
    Imagine if you can, what would happen if you got up in the 
morning and turned on the spigot and nothing comes out. You 
think of how disruptive it is just to not have hot water. Think 
of what it's like to have no water. That's what happened to the 
people in the communities of Fort Yates, Cannonball, and 
Porcupine just days before Thanksgiving last year.
    This is the sign that greeted people that came to the 
hospital. This is the headline from our newspaper: Without 
Water. Schools, clinics, tribal offices, and hospital closed. 
This is the sign that was at the hospital, at the hospital: 
Hospital is closed, no water. That's a disaster. That is an 
absolute disaster.
    The Standing Rock Tribe relies on an intake along the Oahe 
Reservoir to supply drinking water to their communities. The 
Oahe Reservoir now is down 32 feet, 32 feet. What's the reason? 
Well, obviously the biggest single reason is drought, a lack of 
water. That's the fundamental reason.
    But mankind has contributed to the problem by the 
mismanagement of the reservoir. This reservoir is being managed 
under rules that were written 50 years ago. The world has 
changed. The running of the reservoirs up and down the river 
system in this part of the country has not changed.
    This is all overwhelmingly managed for the benefit of the 
barge industry downstream. Because when they started this 
process they thought the barge industry was going to be a much 
more dominant economic player. That proved to be wrong. Things 
changed. Transportation systems changed. The management of the 
reservoirs has not changed.
    I believe this dire situation at Fort Yates underscores the 
strong need for change in the management of the Missouri River. 
We can't afford this any longer. People's lives are at risk 
without water. What could be more clear?
    The dramatic drain of Lake Oahe has created a river that is 
constantly shifting and changing course. Therefore, I believe 
the Corps has a responsibility to help fix it. I am concerned, 
as I know the tribe is, about whether they will lose water 
again. We can't afford to wait until another disaster strikes 
before taking action.
    I want to particularly commend the tribe, especially 
Chairman Murphy and the Bureau of Reclamation, for their quick 
response to this crisis. They worked around the clock and 
through the Thanksgiving holidays, overcoming tremendous odds, 
not to mention freezing conditions, to restore service.
    Again, Senator Inouye, our very distinguished vice 
chairman, thank you so much for holding this hearing. It's just 
critical that we find a way to resolve this crisis.
    Senator Dorgan. Mr. Chairman, I wanted to ask just one 
question, just to have something on the record from the 
chairman and the councilman. The Missouri is one of the great 
rivers in America. I was told when I was there 2 weeks ago, I 
believe by you, Chairman Murphy, that there is a spot north of 
Fort Yates where you can walk across the Missouri River and not 
get your hips wet.
    Mr. Murphy. Right.
    Senator Dorgan. Can you describe that?
    Mr. Murphy. Sure, Senator. It's north of Fort Yates about 4 
miles. They call it Battle Creek Bay. And there is a place 
where you can actually walk across and get on the other side of 
the river, it's probably no wider than from here to you.
    And what we're scared of there, Senator, is that if that 
should freeze up in that area, what's going to happen? That's 
where that delta is going to happen, then the water will not 
flow into our intake. We're lucky right now that the weather 
has been holding up to like 60 degrees back home. Very unusual 
for this time of year, when it's supposed to be about 30 
degrees.
    Senator Dorgan. Again, this is one of the great rivers in 
America. And the chairman describes a location, I have not seen 
it, but I was in the area 2 weeks ago, just south of there. An 
area of 15, 20 feet wide where it is sufficiently shallow so 
that you can easily walk across it.
    Mr. Claymore. Senator, may I? At the time that Lewis and 
Clark came through there, they didn't even drop their boat in 
there because it was so sandy there that they couldn't even 
make it up, they had to clear to Bismarck to drop their boat 
in. They took it out at Mobridge and went around the whole 
reservation to get the boat up north.
    Senator Dorgan. Mr. Chairman, thank you.
    Senator Inouye. I thank you very much.
    Chairman Murphy, I thank you. I can assure you that under 
the leadership of these gentlemen, something will be done. 
Thank you.
    Mr. Claymore. Thank you, Senator, and thank you, Senator 
Johnson, Senator Dorgan, and Senator Conrad. Thank you very 
much.
    Senator Inouye. Our next panel consists of the commander of 
the Northwest Division of the Army Corps of Engineers, 
Brigadier General William T. Grisoli; the area manager of the 
Dakotas Area Office, Bureau of Reclamation, Department of the 
Interior, Dennis Breitzman; the director of the Division of 
Clinical and Community Services, Indian Health Service, 
Department of Health and Human Services, Richard Olson, 
accompanied by Ronald Ferguson, director of the Division of 
Sanitation Facilities Construction.
    I now call upon General Grisoli. Welcome, sir.

 STATEMENT OF WILLIAM T. GRISOLI, BRIGADIER GENERAL, COMMANDER 
  AND DIVISION ENGINEER, NORTHWESTERN DIVISION, ARMY CORPS OF 
                           ENGINEERS

    Mr. Grisoli. Thank you, Mr. Chairman and members of the 
committee. My name is William T. Grisoli and I am the commander 
and the division engineer of the Northwestern Division of the 
Army Corps of Engineers.
    I am pleased to be here today to testify on the matter of 
water supply issues at the Standing Rock Sioux Tribe 
Reservation and on the Corps' role and efforts on managing the 
Missouri River mainstem reservoir system in this time of severe 
drought throughout the basin.
    As you know, the Missouri River basin is currently in its 
fifth consecutive year of drought. Since 2000, below normal 
snow pack, rainfall, and runoff have resulted in record low 
reservoir levels behind the three large upper dams. Fort Peck 
is currently drawn down over 34 feet, Garrison over 24 feet, 
and Oahe over 32 feet. All congressionally authorized purposes 
for which the system was built are presently being impacted, 
except of course for flood control.
    We recognize that the continuing drought conditions have 
resulted in hardships for the Standing Rock Sioux Tribe and 
other tribes and to many of the other water users in the 
Missouri River basin. The drought has impacted water intakes 
all along the river, including intakes that serve the Standing 
Rock Sioux Tribe at Fort Yates, ND. Additionally, the drought 
has caused problems related to noxious weed control, boating 
and reservoir access, exposure of cultural resources and 
increased fire threat.
    Last fall I testified before this committee about the 
Corps' efforts to improve the management of the Missouri River 
system during the times of extended drought and discussed the 
involvement and consideration of basin tribes in that process. 
I listened to the committee and I listened to the tribes' 
concern over the past management and actions in operating the 
mainstem project. Since then, we have improved our ability to 
serve the basin and I am pleased to provide you an update on 
our actions from last year.
    In March 2004, we issued a revised Missouri River master 
water control manual, the guide used by the Corps to regulate 
the six dams on the mainstem of the Missouri River. This 
signing culminated a 14-year effort of analyzing numerous 
alternatives and effects on important economic uses and 
environmental resources in the basin. The revised master manual 
includes more stringent drought conservation measures and 
provides greater reliability and predictability.
    In addition, in April of this year, the Corps co-signed a 
programatic agreement under the National Historic Preservation 
Act, along with 16 Indian tribes, State and tribal historic 
preservation officers, the National Trust for Historic 
Preservation and the Advisory Council on Historic Preservation. 
We are committed to work collaboratively to preserve cultural 
resources that are exposed due to the drought conditions and 
reservoir fluctuations, and to operate and manage the system in 
compliance with the NHPA.
    The Corps also continues to work with Federal agencies and 
with State, local and tribal governments to mitigate the short 
term effects of the ongoing drought. When the Fort Yates raw 
water intake failed in November 2003, the Corps assisted Bureau 
of Reclamation by managing water releases and operations during 
intake construction activities and providing equipment and 
technical assistance during the emergency. We also granted 
emergency permits to place fill material in the Oahe reservoir 
in conjunction with the construction of access roads and the 
placement of water supply intake lines.
    Over the past year we have proactively continued to provide 
technical assistance to the Bureau at their request by making 
design recommendations, providing surveys of the problem areas 
and evaluating contingency plans and technical reports. The 
Corps has also assisted other communities throughout the basin 
with water supply and other problems triggered by the drought, 
including Parshall, ND.
    In closing, we recognize that the continuing drought 
conditions have resulted in hardships for the Standing Rock and 
other tribes along the basin, as well as other water users in 
the Missouri River basin. The Corps remains committed to 
working with our Missouri River basin partners to mitigate 
those impacts to the extent possible, meet our responsibilities 
to federally recognized tribes, serve the congressionally 
authorized project purposes, balance the competing needs of the 
basin and comply with environmental laws.
    I appreciate the opportunity to be here today and I look 
forward to listening to the other testimony and to other ideas 
on how the Corps may improve their service to the public and to 
the Missouri River basin.
    Mr. Chairman, that concludes my testimony. I would be happy 
to answer any questions you or any other members have.
    [Prepared statement of General Grisoli appears in 
appendix.]
    Senator Inouye. I thank you very much, General.
    May I now call on Mr. Breitzman.

   STATEMENT OF DENNIS BREITZMAN, AREA MANAGER, DAKOTAS AREA 
                 OFFICE, BUREAU OF RECLAMATION

    Mr. Breitzman. Good morning, Senator.
    I'm Dennis Breitzman, I'm Reclamation's area manager for 
the Dakotas Area Office. I'm located in Bismarck, ND. I'd like 
to summarize the written testimony I submitted on Wednesday.
    Senator Inouye. Without objection, the full statement will 
be made part of the record.
    Mr. Breitzman. Reclamation has worked with the Standing 
Rock Sioux Tribe for almost 20 years on the development and 
operation of a rural water system to distribute water to about 
16,000 residents throughout the reservation. The tribe has 
prepared a final engineering report, which is the tribe's plan 
for completing construction of the reservation-wide system.
    We have also been working with the tribe to construct a 
water supply system to deliver Missouri River water for the 
irrigation of 2,380 acres of crop land. These projects are 
being designed and built, and in the case of the rural water 
system, operated and maintained by the tribe through contracts 
with Reclamation under Public Law 93-638.
    Reclamation's work over the past year on the Standing Rock 
reservation focused on water supply intakes from the Missouri 
River. These include the Fort Yates intake, the Wakpala intake, 
and the Cannonball irrigation intake. The Fort Yates and 
Cannonball intakes are located on the Missouri River at the 
upper end of Lake Oahe, and the Wakpala intake is located in 
Lake Oahe near the mouth of the Grand River.
    Fort Yates' raw water intake is an integral part of the 
Standing Rock rural water system, transmitting river water to 
the treatment plant located in Fort Yates. It is the primary 
source of drinking water for a population of over 3,400, 
including the communities of Fort Yates, Cannonball and 
Porcupine, as well as Prairie Knights Casino and Lodge.
    On November 24, 2003, low water conditions and shifting 
water sediment combined to disable the Fort Yates intake. 
Normally this intake is safely submerged in 30 to 40 feet of 
reservoir water. With the continuing drought in the Missouri 
River watershed, the intake is now in a river channel in a 
delta at the upper end of Lake Oahe. Without a water supply, 
the tribe closed schools, hospitals and tribal offices. Working 
day and night in severe weather conditions, Reclamation and 
tribal crews, assisted by State agencies, restored water flow 
by the afternoon of November 26 by using temporary pumps and 
above-ground piping assembled across the mud flats of the river 
channel.
    In consultation with the Environmental Protection Agency, a 
precautionary boil water advisory went out and remained in 
effect until December 2. This allowed for flushing of the 
distribution system and water quality sampling in the system. 
Reclamation secured supplementation operation and maintenance 
funding from within the agency to cover the immediate costs of 
restoring the water supply.
    In December 2003, work focused on making the temporary pump 
system more reliable during the freezing water conditions. This 
included construction of an access road and installation of a 
pipeline below the frost line. The Army Corps of Engineers 
coordinated releases and operation of the reservoir during the 
construction activities. And by March 2004, a new interim 
intake sump structure with a submersible pump assembly was 
operational. That pump remains operational today.
    Concerned about the continuously changing river conditions, 
the tribe requested that Reclamation prepare backup water 
supply plans. Reclamation is working with the Standing Rock 
rural water office on finalizing emergency response plans to 
address potential problems caused by low water levels. If the 
intake fails or the river channel shifts and the water supply 
is cut off, a backup pumping plan has been developed. Recent 
field exercises held just the week before last proved that we 
can restore water supply to the treatment plant well before all 
system storage is fully depleted. This plan will hopefully 
avoid future interruptions.
    Reclamation and the tribe are also planning a groundwater 
well to provide a backup water supply independent of the river. 
This groundwater source would only serve as an emergency backup 
water supply, because of poor water quality and limited 
quantity. This backup water source should also be completed 
before the end of the calendar year.
    The Wakpala intake on the reservation also has been 
affected by low water levels in Lake Oahe. The Wakpala intake 
provides water for a population of about 1,600 people, 
including the community of Wakpala and the Grand River Casino. 
The Lake Oahe water forecast for the spring of 2004 indicated 
the Wakpala intake would likely become inoperable in the summer 
of 2004. Lowering the intake screen was a short term solution 
enabling the tribe to maintain a water supply throughout the 
summer.
    Concerned about continuing reservoir decline, the tribe 
secured funding, including $200,000 from Reclamation, to 
construct a replacement intake that will be approximately 9 
feet lower than the existing intake. This new intake should be 
completed this fall.
    Finally, to address potential intake problems in the event 
of long term low water conditions for both the Fort Yates and 
Wakpala service areas, Reclamation and the tribe are actively 
investigating a horizontal well system near Fort Yates. The 
Cannonball intake, constructed to provide a water supply to 
irrigate about 800 acres of crop land near the community of 
Cannonball, has also been impacted by low water levels. This 
area is upstream of Fort Yates and the receding water levels in 
Lake Oahe left this intake high and dry during the 2004 
irrigation season. The tribe used project funds to install a 
portable pump to provide a temporary water supply during this 
period.
    That concludes my comments, Senator. I thank you.
    [Prepared statement of Mr. Breitzman appears in appendix.]
    Senator Inouye. Mr. Breitzman, I thank you, sir.
    May I now recognize Mr. Olson.

    STATEMENT OF RICHARD OLSON, M.D., DIRECTOR, DIVISION OF 
   CLINICAL AND COMMUNITY SERVICES, INDIAN HEALTH SERVICES, 
 ACCOMPANIED BY RON FERGUSON, DIRECTOR, DIVISION OF SANITATION 
                   FACILITIES CONSTRUCTION, 
                     INDIAN HEALTH SERVICE

    Mr. Olson. Good morning, I'm Dr. Rick Olson. I'm the 
director of the Division of Clinical and Community Services for 
IHS at our Rockville office. I'm accompanied by Ron Ferguson, 
who is the director of the Division of Sanitation Facilities 
Construction at IHS headquarters.
    We're here today to discuss the impact of the failure of 
the Fort Yates municipal water system on our IHS hospital 
located in Fort Yates, ND. Because the water system failed so 
quickly, local officials were unable to provide advanced 
warning to the public, and since then, as we have just heard, 
the Bureau of Reclamation has made certain improvements to the 
water intake system. In addition, the IHS has successfully 
drilled and installed a well on IHS hospital property grounds 
that could keep our boilers and furnaces in operation and 
provide water to bathroom facilities. However, this water is 
not of sufficient quantity or quality that would be suitable 
for medical use or human consumption.
    I would like to provide to the committee background on the 
events of last year that left the Standing Rock community 
without water, and particularly its impact on our health care 
facility and our ability to provide health care services to the 
Standing Rock tribal community. Late on Sunday night, on 
November 23, service unit staff were informed that there were 
problems with the water system and that the water lines were 
losing pressure.
    Quickly, steps were taken to deal with issues of patient 
safety at the Fort Yates hospital. Fortunately at that time 
there were no inpatients at the hospital. This is a low acuity 
hospital with around three to five patients normally. Also, 
since it was late at night, there were no emergency patients in 
the emergency department. So without potable running water, we 
made the decision to send the inpatient nursing staff home and 
then the service unit leadership met with the tribal ambulance 
officials and advised emergency medical technicians to take 
patients to Bismarck rather than bring them to the IHS 
facility.
    Dialysis services, as we have heard already, had to be 
closed. Dialysis requires a large amount of very pure water in 
order to be provided. The emergency room staff was then sent 
home and the hospital was essentially closed other than the 
maintenance staff, who were kept there to keep the boilers and 
furnaces up and running. The furnaces were kept running by 
hauling water from a private well 4 to 5 miles away from the 
hospital.
    The next morning, on Monday, November 24, after conferring 
with the tribe, the decision was made to keep the hospital 
closed. Public statements on radio stations were used to inform 
the public of the water supply problem, the closure of the 
hospital and advising them where to seek medical services. 
Arrangements were made to transport dialysis patients into 
Bismarck. Medical staff from the Fort Yates hospital were sent 
down to the McLaughlin, SD Indian Health Service clinic, which 
is located about 25 miles south of Fort Yates, to assist in 
seeing outpatients at that clinic, because it was anticipated 
that we'd see more patients down there because of the closure 
of the hospital.
    By Wednesday, we were able to open up a general walk-in 
clinic at the Fort Yates hospital, but had limited services and 
restrooms were functional because of the use of hauled water to 
them. The Fort Yates Indian hospital returned to full operation 
the following week, the first week in December, after running 
water was restored by the tribe and the Bureau of Reclamation 
and the water was determined to be safe by the Environmental 
Protection Agency.
    That concludes my remarks, and I would be happy to answer 
any questions.
    [Prepared statement of Dr. Olson appears in appendix.]
    Senator Inouye. I thank you very much, Dr. Olson.
    Because of the nature of the problem being discussed in 
this hearing, I would like to begin the questioning with the 
members of the delegation from North Dakota, Senator Dorgan.
    Senator Dorgan. Senator Inouye, thank you very much.
    First, let me ask Brigadier General Grisoli about the 
priorities with respect to the use of water in the Missouri 
River system. In managing the dams and reservoirs along the 
mainstem of the Missouri River, the question is how does the 
Corps determine which water uses have the greatest priority? 
For example, under the current management plan, does the Corps 
consider the availability of drinking water to be the top 
priority in terms of water use?
    Mr. Grisoli. Senator, we look at all the congressionally 
authorized purposes, and we try to balance the requirements 
between those purposes that we've been given, plus comply with 
the environmental laws and meet our treaty and trust 
responsibilities.
    Senator Dorgan. But as you assess the congressional 
mandates, tell me where does drinking water fit in? Is drinking 
water in your assessment of these mandates a higher or lower 
priority than other uses?
    Mr. Grisoli. We always look at, obviously, life and limb 
and those types of things as the highest priority when we look 
at our balancing. Drinking water, to make sure it's available, 
and we feel that the revised current master manual provides the 
availability. It is very difficult, as you know, when it's a 
river versus a reservoir, to draw water out of that. We 
recognize that.
    Senator Dorgan. I am trying to get to something more 
specific. As you evaluate the management of the river under the 
current congressional mandate, is the assured supply of safe 
drinking water for citizens who receive that water from the 
river a higher priority than other priorities, or is it simply 
equivalent to others?
    Mr. Grisoli. All the purposes, except for flood control, we 
look at trying to balance those.
    Senator Dorgan. Including safe drinking water?
    Mr. Grisoli. We provide adequate water supplies as it goes 
by, and it is all calculated as we move water through the 
system to ensure it is there and available.
    Senator Dorgan. But the issue of whether someone has a 
water supply would not be necessarily balanced against whether 
someone else for 12 consecutive months had an opportunity to 
take water for irrigation, would it? I understand what you are 
saying, that there is a management plan, and I am trying to ask 
with respect to the specifics of how you get to that, the 
management of the mandate that comes from Congress with respect 
to the assured supply of water for human consumption. I assume 
when you talk about that that has to be the highest use.
    Is that not right?
    Mr. Grisoli. It always has to be available.
    Senator Dorgan. So availability of water for human 
consumption is the highest use?
    Mr. Grisoli. Which is, Senator, we need to balance all of 
them. We have several authorized purposes. That is one of the 
ones, just like all the others, that has to be available. 
Navigation has to be available. Recreation, flood control, they 
have to be available to the users.
    Senator Dorgan. Let me ask it in a different way. What if, 
in order to make available sufficient water available for 
navigation in the downstream reaches of a relatively small 
navigation industry, less than $10 million a year, what if in 
order to make that water available, you understood and knew 
that it was jeopardizing the availability of water for human 
consumption upstream? What then would be the response of the 
Corps of Engineers?
    Mr. Grisoli. I think that, Senator, when you look at that, 
we've incorporated in our plan, a revised plan, stringent 
drought conservation measures to ensure that when you got to a 
certain level in the reservoirs. For example, we've raised the 
preclude to navigation to 31 from 21. That's 10 million acre 
feet. Therefore, we recognize the need to have that water 
supply. You have to have a basic amount of water in the system 
for those types of things you're saying.
    So when you get down to a certain amount of water, you need 
to draw the line, and we've drawn that line. We were able to 
raise that and add more stringent capabilities above and beyond 
the preclude. So if we continue to go down, we stop navigation, 
we stop some congressionally authorized purposes. And we've 
coordinated that on serving that purpose. So you do have that 
water supply, that continues.
    What we've tried to do in this new revised manual is cause 
any sort of drought to mitigate those impacts and reduce the 
drawdown. Unfortunately we are right in the middle of a 
drought. So when we started this plan, it wasn't in the 
beginning, which would cause us to come down a lot slower, 
we're in the middle of it. That was all recognized and 
considered within the plan itself.
    Senator Dorgan. Is there roughly 37 or 38 million acre feet 
in the system at this point?
    Mr. Grisoli. Senator, I believe there's approximately 35.8.
    Senator Dorgan. So close to 36 million acre feet in the 
system at this point, and we're in the middle of a drought, is 
that correct?
    Mr. Grisoli. Yes.
    Senator Dorgan. And you drew the line at 31 million acre 
feet?
    Mr. Grisoli. Thirty-one.
    Senator Dorgan. Why would you draw the line at 31 million 
acre feet if we're in the middle of a drought with 36 million 
acre feet in the reservoir system?
    Mr. Grisoli. Senator, as you know, that has been a 
challenge for over 14 years, as far as where that preclude line 
should be. Modeling was done, public discussions were done all 
up and down the basin to determine a 31.
    I would offer that when I came on board and I spoke to both 
of you gentlemen about the different issues on the Missouri 
River basin, back in 1999, seven out of the eight States 
offered up a modified conservation plan that said 31 preclude 
is about the right answer. So one of the areas that I took on 
and wanted to provide for the basin was a 31 preclude. So we 
were able to get that 31 preclude.
    Senator Dorgan. And the one State that did not agree with 
that was Missouri, as I understand, is that correct?
    Mr. Grisoli. That's correct.
    Senator Dorgan. And the 31 at that point was 5 years ago. 
Since that time, of course, we have had even greater protracted 
drought. The reason I am asking this question is that I 
understood you to say there is a drought, I understood you to 
say that you drew a line at 31 million acre feet to respond to 
a drought, and because in a drought we now have 36 million acre 
feet in the system, the 31 million acre feet line that you have 
described as something that would relate to drought measures is 
largely irrelevant with respect to your day to day activities, 
is that not correct?
    Mr. Grisoli. Senator, I would not say that it's not 
relevant, in the fact that we're still able to provide water. 
The difficulty and the risk is higher, I agree. But the water 
is still available and passing by at this particular point. But 
it's more of a challenge to obtain, yes.
    Senator Dorgan. Mr. Grisoli, I have laid eyes on this spot 
at Fort Yates where they have the intake just 2 weeks ago. I 
must say to you that when we talk about water, this mighty 
river is fast becoming a puddle where we're trying to get water 
for human consumption. I was heartened somewhat by Mr. 
Breitzman's description of the alternative, so that you might, 
when this line, not if but when this line plugs up or when this 
line does not have availability of water to deliver that you 
are going to have, in the storage system, sufficient time to go 
to this alternative.
    But the fact is, we have a full scale drought in my 
judgment, a drought emergency. We asked Mr. Breitzman's 
organization to come in and work through the Thanksgiving 
period and cobble up some way to get some water out of part of 
this river. But with respect to the management of the river, I 
recognize there is less water in the system, therefore there 
are problems.
    But I also believe that the Corps of Engineers has created 
a circumstance where you describe a drought and then describe a 
remedy for responding to the drought that will never be 
employed. Of what value is a remedy that will never be 
employed? Thirty-one million acre feet, as you know, is not 
going to reguire you to do anything, because we are at 36 
million in a drought. Senator Burns and I have put in an 
appropriations bill a 40-million acre trigger which is much 
more realistic. We are in a drought. We ought to be employing 
triggers immediately, especially for the highest priority, 
which is water for human consumption.
    This is a debate that will go on longer than this hearing, 
General. I respect the work of the Corps, but I profoundly 
disagree with what the Corps is doing and has done and likely 
will do unless we continue to light as big a fire as is 
possible under the Corps of Engineers to respond to the 
management of the river in the right way. In my judgment, the 
management of the river must understand that the first and most 
important priority is to make certain that we don't have people 
cutoff from an adequate supply of water. As Senator Conrad's 
chart illustrates, when you show up at a hospital and see a 
sign that says, no water, we are talking about a human crisis 
here.
    So I appreciate your coming to the hearing, but the 31 
million acre feet trigger means nothing to me, and it means 
nothing to the Fort Yates area, nothing to Parshall, nothing to 
Wakpala, nothing to anybody upstream that I think has been 
cheated by the management of the river, General. You and I 
will, I was just reelected, and I am not boasting about that, I 
am just observing, I am probably going to be here for a while, 
and you are going to be around for a little while. So you and I 
are just at this point a fuse and a match.
    So we will try to get closer together and see if we can 
find a way to explode this 31 number so that we have some 
realistic way of managing the river to deal with this issue of 
human consumption.
    I have taken more time than I intended. But if I might make 
one final point. Mr. Breitzman, again, and Mr. Olson, and all 
the others who are unnamed at this hearing, thanks for the work 
that you have done. We still have significant reimbursement 
issues. I am going to submit questions to Mr. Keyes and to you, 
Mr. Breitzman, in the hope that on these reimbursement issues 
to the tribes that we will get some better answers.
    Thanks for the cooperation so far. Thanks to your men and 
women for the work they have done. General, thank you for being 
here, but let's hope that we can find a way to begin creating 
solutions for these issues, and that this never happens again. 
Thank you very much.
    Senator Inouye. Senator Conrad.
    Senator Conrad. Thank you, Mr. Chairman.
    Mr. Grisoli, if I could, first of all, let me say, I think 
you are an excellent person. I think you are here, I think 
you've been sent here to represent a policy that really doesn't 
hold up much under the light of day. You and I have had intense 
discussions previously about this, you know we have very strong 
feelings. This does not reflect on you personally, let me start 
with that.
    What was the reservoir level in the early 1990's when we 
had the previous dramatic drought?
    Mr. Grisoli. Could I check on that point before I answer 
that question? I think it was around 40.
    In the drought of the 1980's and early 1990's, it was about 
41 million acre feet.
    Senator Conrad. 41 million. Now we're at 36 million.
    Mr. Grisoli. Yes, Senator.
    Senator Conrad. How much was the navigation season reduced 
in that earlier period when the reservoir levels were higher?
    Mr. Grisoli. I'd like to come back officially on the record 
on that. But I know that they were reduced significantly.
    Senator Conrad. Five weeks.
    Mr. Grisoli. But it wasn't part of the master manual plan 
at that particular time.
    Senator Conrad. Well, let me just, would it surprise you to 
know that the navigation season was reduced by 5 weeks?
    Mr. Grisoli. That's approximately what I've heard.
    Senator Conrad. How much was the navigation season reduced 
this last year?
    Mr. Grisoli. This has been reduced 47 days.
    Senator Conrad. The previous year?
    Mr. Grisoli. Reduced 13 days.
    Senator Conrad. Reduced 13 days. And how about the year 
before that?
    Mr. Grisoli. I'd have to ask someone.
    Senator Conrad. Seven days?
    Mr. Grisoli. I'd have to come back on the record, Senator, 
on that.
    Senator Conrad. I'd like to get that. The point here is 
very simple. We've got less water in the reservoir now than we 
had in the late 1980's and early 1990's. And yet you reduced 
the navigation season far more then than now. And it just, it 
so profoundly angers people that this reservoir is being 
managed for a barge industry that generates less than $10 
million a year of economic activity and part of the result is 
people are left without water.
    Now, let me just--and I'm not talking about, the sign there 
says it all, without water, hospital is closed, no water. So 
we've got to get serious here about dealing with this 
situation.
    Let's talk about what's to come. Based on your projections 
for next year, what's the Corps' forecast on the level of Lake 
Oahe?
    Mr. Grisoli. The level of Lake Oahe? I'll have that in 1 
minute, Senator.
    If I may offer one comment, reference the analogy of what 
happened last year and what happened this year, as you saw, 
there is a big difference. If we had not changed the master 
manual from last year, it would have only been 17 days this 
year. But because we revised it, it was 47 days.
    Senator Conrad. And that is a step in the right direction. 
Absolutely. The problem is, we're in the midst of this 
horrendous problem.
    Mr. Grisoli. Right.
    Senator Conrad. But let me, I really want to get to where 
we're headed. I think that's critically important. Can you give 
us what the forecast is?
    Mr. Grisoli. The challenge, Senator, is it would rise 
slightly in the spring, about a foot. Then it depends on the 
runoff and what we think the runoff would be, et cetera., as 
far as what it's going to end up around this time of the year, 
which is the worst time of the year, obviously, after the 
runoff is gone. It really does depend on, do we have 16.8 
million acre feet runoff or do we have 25 million acre feet 
runoff on what it's going to be.
    Senator Conrad. And do you have a forecast?
    Mr. Grisoli. If we have a medium flow, it will be about 5 
feet higher. If we have a low flow, we think it's going to be 
somewhere between the medium and the low, it's not going to be 
high, it will be 10 to 12 feet lower.
    Senator Conrad. Well, that's what I was afraid of. What 
would the impacts of that level be on the water and irrigation 
intakes at Standing Rock?
    Mr. Grisoli. Well, at Standing Rock, Senator, it's hard to 
determine what I think is the real problem, which is, it's on a 
river. There will still be adequate water passing through, but 
it's the ability to draw that water. Because it's a river and 
it's dynamic. So as we work these fixes and we work with the 
Bureau of Reclamation, it will be very key, just like in 
Bismarck, we have to draw out of the river. There's no 
reservoir there. We have to have a good system that we fall 
back on that can handle a river.
    Senator Conrad. Well, let's get to that question, because 
that really is the question.
    What action steps have you taken to prepare for that 
projected water level to prevent their being a water 
interruption again?
    Mr. Grisoli. We continue to work with, I think the key is 
the Federal agencies work together with the State and tribe. I 
think that's number one. And we communicate.
    Number two is that we offer and we pay attention to the 
water levels, the possibility of the shift, which is the 
greatest worry of the tribe. Obviously the next one is the 
icing issue. Work with the Bureau of Rec on any permits they 
might need, and equipment and engineering advice.
    It's a team effort, really.
    Senator Conrad. Okay. Well, let's talk to the whole team. 
Mr. Breitzman and General Grisoli, can you assure this 
committee that you are prepared to take the steps necessary to 
prevent an interruption of the water supply again?
    Mr. Breitzman. Senator, we share the concerns mentioned by 
the General. I think the concern we have is a shift in the 
channel near Fort Yates, or ice-up conditions.
    Senator Conrad. I know the concerns. That's not my 
question. My question is very clear and very specific.
    Mr. Breitzman. I understand.
    Senator Conrad. Can you assure this committee that you are 
prepared to take the steps necessary, whatever the conditions 
are, to prevent an interruption of water again? That's the 
question. And that's what I'm going to insist on an answer to.
    Mr. Breitzman. Senator, as I mentioned, we've worked with 
the tribe on an emergency response plan in the case of low 
water conditions worse than we had last year. And we've done 
two things. We have purchased the pipe and the pumping material 
on the trailer. We've put an agreement together with the 
Garrison Conservancy District to assist us to place that piping 
and pump if need be. We exercised that the week before last. We 
were very successful. We actually had water running to the 
treatment plant in less than 1 hour.
    In addition to that, we are working with the tribe to drill 
a groundwater well, which would be independent of the river. 
And the bids closed on that well drilling, I believe it was 
this Monday, sir. And we're hopeful that will provide an 
adequate quantity of water for an emergency situation only. 
It's not great water quality, but we're putting a chlorination 
system in. It will be hooked up to the treatment plant and yes, 
sir, we believe that we can't think of anything else to do. We 
think that will address any situation we will encounter this 
coming water year.
    Senator Conrad. So, and let me ask General Grisoli, do you 
believe that you are prepared to meet any eventuality to assure 
that there is not a break in water supply?
    Mr. Grisoli. Senator, the Corps is committed to all these 
basin cities and tribes along the river to do everything within 
our authorization to assist.
    Senator Conrad. Wait 1 minute. That's not my question. I'm 
not asking about every--I'm asking a very specific question 
here.
    Mr. Grisoli. At Fort Yates, we are prepared and we are very 
well tied into Chairman Murphy and into the Bureau of 
Reclamation to fill our role and to help and do everything we 
can.
    Senator Conrad. Okay, but that's not the answer to my 
question. I want to know from you and from Mr. Breitzman 
whether you are testifying to this committee that you are 
prepared to prevent any breakdown in the delivery of water to 
the tribe. That's the question.
    Have you taken the steps necessary to assure this committee 
there is not going to be an interruption in the water supply to 
the people of that tribe?
    Mr. Grisoli. I believe we have taken the steps necessary 
within our authority to try to make sure there is no 
interruption. We have got our folks watching very closely to 
support the efforts of the Bureau of Reclamation. It's very 
hard when your support, it's very hard to say it won't happen, 
because I rely on a team.
    Senator Conrad. Well, let's ask Mr. Breitzman.
    Mr. Grisoli. We are prepared to do whatever necessary.
    Senator Conrad. Okay. I'm taking you at your word, and I 
trust you. I think you are honest. I disagree very much with 
the position of the Corps on the management of this reservoir. 
I trust you personally. I think you're an honorable person and 
I'm taking your word.
    Mr. Breitzman, I feel the same way about you. I've dealt 
with you for many years. You're an honorable person. I 
appreciate the extraordinary work that you did last time there 
was an interruption.
    But it's important for us to know, have all steps necessary 
been taken to assure there is not an interruption again in the 
water supply?
    Mr. Breitzman. Senator, without repeating, I think the 
steps we've taken, we believe we've taken the only steps we 
know to take to assure a water supply this winter. I can speak 
for myself and my staff, we're confident we can bring water to 
Fort Yates this winter.
    Now, to qualify that statement, there is still a need to 
address the long term intake issue at Fort Yates. That is being 
addressed by the tribe in their final engineering report. 
Because of the emergency we encountered last year, I think that 
the intake options that the tribe is examining have changed. I 
mentioned earlier in my comments that they're looking at, and 
we're working with them looking at a horizontal well system 
which won't be as dependent on the flows in the river. That's 
an option.
    Senator Conrad. What's the cost of that option?
    Mr. Breitzman. The only cost I've seen, and it's a rough 
estimate by the tribe's consultants, that's around $30 million.
    Senator Conrad. $30 million?
    Mr. Breitzman. Yes, sir.
    Senator Conrad. What would be the source of that funding?
    Mr. Breitzman. That would be, I believe it would be Dakota 
Water Resources Act. That would be a portion of the ceiling of 
that Act allocated to the Fort Yates water system.
    Senator Conrad. And do you recall what the ceiling is that 
was allocated to them?
    Mr. Breitzman. $80 million, sir, for Standing Rock.
    Senator Conrad. So $30 million of the $80 million would go 
just for that purpose?
    Mr. Breitzman. That would be for a well system and for a 
new treatment plant. That would replace both the Fort Yates and 
Wakpala intakes.
    Senator Conrad. That is really sobering. I must say that 
$30 million estimate, that's stunning to me.
    Mr. Breitzman. Yes.
    Senator Conrad. That is truly stunning.
    I have other questions, Mr. Chairman, but I don't want to 
prevail on your patience any further. I do have questions I 
would like to submit to the record with respect to Bureau of 
Reclamation reimbursement of the tribe, some $400,000 to 
provide meal services to those individuals repairing the 
intake. Has that been reimbursed to the tribe?
    Mr. Breitzman. Senator, I'm not sure about that specific 
cost. We have reimbursed some costs to the tribes, and in some 
cases I've been advised we don't have the authority to 
reimburse some costs.
    Senator Conrad. I'd like, and very specifically, I'll 
submit this question for the record, and if you could respond 
in writing as to whether or not they have been reimbursed, and 
if not, why not. I would also like to submit to the Corps in 
writing questions about the legal obligation to the tribe, what 
I think is an irrefutable right to water in the basin, under 
the Winters doctrine and the priority that is given within the 
plan to the tribe. I think very clearly the commitment is 
there. I want to find out if the Corps shares that view. Maybe 
you could just tell me, General Grisoli, if you do share that 
view under the Winters doctrine, that the tribe is assured 
right to water.
    Mr. Grisoli. We recognize the reserve water rights, 
Senator, yes.
    Senator Conrad. Where in the priority list does that fall?
    Mr. Grisoli. It's equal to the things we have to do. We 
look at, as I had mentioned, we have congressionally authorized 
purposes, we have to comply with ESA and we always look at 
meeting our trust and treaty responsibilities.
    Senator Conrad. Let me just say to you, when I hear you say 
this, it reminds me of what my grandmother used to say to me. 
She said, Kent, if everything is a priority, nothing's a 
priority. When I hear you say everything is equal, I don't see 
it that way. I don't see floating a barge as equal to the right 
of a tribe to have water for consumption that's necessary to 
preserve human life. I don't see how that's equal.
    Mr. Grisoli. Senator, let me clarify the point about when 
the water, if the water is quantified and ratified by Congress, 
and there is a certain amount of million acre feet, obviously 
that will be fulfilled directly. As it stands right now, that 
has not been done. We try to meet the trust and treaty 
responsibilities by providing access to water.
    Senator Conrad. Well, I'm not going to go further. I would 
just say to you, this is a very serious obligation. The Federal 
Government has made promises. We've entered into treaties. 
Those treaties have been ratified by Supreme Court 
determinations. It's just as clear as a bell to me that we've 
got that obligation and that responsibility.
    I thank the Chair.
    Senator Inouye. I thank you very much.
    I have a few questions, if I may ask. General, is there 
anything you would have done differently to avoid the problems 
experienced last November and December, if you had to do it 
again?
    Mr. Grisoli. Senator, I'm glad you asked that question. I 
will tell you that across the board, I think the team didn't 
anticipate well enough the issues along the reserve. I will 
tell you that this year, that's a little different. We've been 
more proactive, Federal agencies trying to work with State and 
tribe.
    Last year, it wasn't that way. We were anticipating some 
problems, but I don't think it was proactive. I think that's a 
fair statement to say across the board to everyone. You see the 
changing of the reservoir system and yet, I'm not sure if we 
were as proactive as we should be.
    Senator Inouye. In the statement of Chairman Murphy, he 
spoke of an inland reservoir, or a manmade lake, costing about 
$30 million. Is there any construction plan for this project, 
or is it just an item of discussion?
    Mr. Grisoli. At this time, Senator, I have no information 
as far as it being a particular plan or study. That's just an 
initial idea or concept.
    But I believe also, I offer that the Bureau of Reclamation 
would be authorized to work that project. It wouldn't be a 
Corps project. But I could be wrong.
    Senator Inouye. Mr. Breitzman, is that or feasible idea? Is 
it practical?
    Mr. Breitzman. Senator, I also don't know. I must admit 
this morning is the first time I've heard of the inland 
reservoir proposal. We'd have to look into that.
    Senator Inouye. General and Mr. Breitzman, can you sit down 
with Chairman Murphy and his council and see if something can 
be done? As a member of the committee, I would like to see 
that. And if it is feasible and practical, I am on the 
Appropriations Committee, so maybe we can do something about 
it.
    Mr. Breitzman. We will do that, Senator.
    Mr. Grisoli. We will do that, Mr. Chairman.
    Senator Inouye. I realize that a problem of this nature 
cannot be fully and guaranteed controlled, because after all, 
there is such a thing as nature and the Good Lord. He has His 
own ideas.
    But I would just like to note that when our troops entered 
Baghdad, the people there received us with cheers and with 
huzzahs, they tore down the statute of Saddam Hussein, there 
was much joy and merriment in that city. But we noted that 
within 1 week, these same faces became faces of anger. And in 
our hearings, we noted that there were many causes for this.
    One of the major causes was that we did not have plans to 
repair the damaged water systems and the damaged sewer systems. 
We had the finest troops in the world, but they were war 
fighters.
    They were not water system repairers and sewer system 
repairers.
    And the Indians here, I think, have been very patient all 
these years, because they know that you're trying your best. So 
I hope that you will try a little harder. Let us come up with 
this plan, if it is feasible, if it is practical, maybe that is 
the solution.
    But I think it might cost more than $30 million. But we 
will see.
    But before I adjourn the hearing, I would like to indicate 
that the record of this hearing will be kept open for 2 weeks. 
For all the witnesses, if you wish to supplement your testimony 
or clarify your testimony, please feel free to do so.
    This will be my last meeting in which I will be presiding 
as vice chairman. I will continue to serve as a member of the 
committee, but I will be taking over another leadership role on 
the Commerce Committee.
    Before I do, I would like to just note a few things. When I 
became a member of this committee 26 years ago, there were only 
5 members. It was a select committee, it was not an important 
committee. Today there are 15 members. And I am happy to say 
that my colleagues in the Senate now seek membership on this 
committee.
    Second, we have been given much praise and credit for what 
we have done. It is true that this committee has considered 
more legislation and passed more bills than any other committee 
in the Senate. It is hard to believe that, but this has been a 
very busy committee. But it would not have been done were it 
not for the staff, and I would like the record to show these 
are the staff people.
    The Majority Staff Director and Chief Counsel, Paul 
Moorehead. The following are the counsel to Chairman Campbell; 
David Mullon, John Tahsuda, Perry Riggs, Rhonda Harjo, and Jim 
Hall. Professional Staff Member, Lee Frazier.
    The Minority Staff Director and Chief Counsel is Patricia 
Zell. The following are the counsel to the Vice Chairman; Janet 
Erickson, Carl Christensen, Diana Kupchella, and Colin Kippen. 
The Chief Clerk of the Committee, Marilyn Bruce; Computer 
Systems Administrator, Dawson Ford; Office Manager, Tana 
Towney; Receptionist, Sarah Fluhart; and Printing Officer, John 
Mogavero.
    I cite these names because there will be a major change in 
the leadership of this committee.
    Chairman Campbell will now go into the private sector, and 
I will be on another committee. So many of these staff members 
may not be back with us, but I wanted to thank them for all the 
work they have done with us. I hope that the succeeding staff 
will continue the work that we have established over the years.
    I am sorry to have taken up this time, but General, Mr. 
Breitzman, Mr. Olson, I thank you very much for your testimony. 
We look forward to a report coming in from what you have 
concluded.
    One final question, Mr. Olson. Mr. Murphy said that as a 
result of this recent drought, you incurred an extra cost of 
$300,000, is that correct?
    Mr. Olson. The information I have is that most of that 
relates to lost services. We had staff that had to be put on 
administrative leave and of course be paid, and services were 
not provided to tribal members during that period of time. So 
that was not extra expenses that the Indian Health Service had 
to pay, except for overtime for maintenance staff and some 
additional contract health dollars and some lost revenue. But 
the bulk of it had to do with staff that was not able to 
provide services to the tribal members.
    Senator Inouye. Have you applied for compensation for this 
loss?
    Mr. Olson. Sir?
    Senator Inouye. Have you applied for reimbursement for this 
loss?
    Mr.Olson. Not that I'm aware of.
    Senator Inouye. Why do you not?
    Mr. Olson. Yes, sir.
    Senator Inouye. Once again, I thank you very much. And the 
hearing stands at recess.
    [Whereupon, at 11:25 a.m., the hearing was adjourned.]


=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


Prepared Statement of William T. Grisoli, Brigadier General, Commander 
   and Division Engineer, Northwestern Division, U.S. Army Corps of 
                               Engineers

    Mr. Chairman and members of the committee, I am Brigadier General 
William T. Grisoli and I am Commander of the Northwestern Division of 
the U.S. Army Corps of Engineers [Corps]. I am pleased to be here today 
to discuss our roles, responsibilities, and efforts on managing the 
Missouri River Mainstem Reservoir System and on the matter of water 
supply issues at the Standing Rock Sioux Tribe Reservation.
    The Missouri River basin is currently in its fifth consecutive year 
of drought. Since 2000, below normal mountain snowpack, rainfall and 
runoff have resulted in record low reservoir levels behind the large 
upper three dams: Fort Peck is currently drawn down over 34 feet; 
Garrison, over 24 feet; and, Oahe over 32 feet. Currently, all 
Congressionally authorized purposes for which the System was built are 
being negatively impacted except for flood control. We recognize that 
the continuing drought conditions have resulted in hardships for the 
Standing Rock Sioux, other tribes, and to many of the water users in 
the Missouri River Basin.
    The drought has negatively affected many river and reservoir water 
intakes including the water intake that serves the Standing Rock Sioux 
Tribe at Fort Yates, ND. Lower pool levels at the upper three 
reservoirs have also caused problems related to noxious weed control, 
boating and reservoir access, exposure of cultural resources and 
increased fire threat.
    The System is comprised of six dam and reservoir projects 
authorized by the Rivers and Harbors Act of 1935 and the Flood Control 
Act of 1944 to operate as an integrated system providing for flood 
control, navigation, irrigation, hydropower, water supply, water 
quality, recreation, and fish and wildlife. On this river system, the 
Corps of Engineers follows the Missouri River Master Water Control 
Manual [Master Manual], which guides how we regulate the flow of water 
at the six dams on the mainstem of the Missouri River: Fort Peck, 
Garrison, Oahe, Big Bend, Fort Randall, and Gavins Point. First 
developed in 1960, the Master Manual was first revised in 1975 and 
1979, to make changes in flood control regulation criteria.
    With input from affected interests and other agencies, the Corps 
formulates and publishes Annual Operating Plans, which inform the 
public of expected operations over the coming year. The Draft Annual 
Operating Plan for 2005, which presents our planned regulation of the 
Mainstem System under a wide range of water supply conditions, was 
recently released for public review. Seven public meetings were held 
throughout the basin in October to review the Draft, take comments and 
answer questions regarding the plan. The details of the plan were also 
presented at the Mni Sose Intertribal Water Rights Coalition meeting in 
late September. After taking into consideration comments received on 
the Draft, we expect to release the Final Annual Operating Plan in 
December.
    It was 1 year ago I testified to this committee regarding our 
efforts to improve our management of the System during times of ongoing 
and extended drought. I discussed the involvement and consideration of 
tribes in this process. I listened to the committees' and tribes' 
concerns over our management and actions in operating the Mainstem 
projects. Since that time, we've improved our ability to serve the 
Basin, and I am pleased to provide you with an update of our actions 
since that prior testimony.
    On March 19, 2004, I signed a Record of Decision and issued a 
revised Master Manual that includes stronger drought conservation 
measures. This culminated a 14-year effort that included an analysis of 
alternatives and their effects on the economic uses and environmental 
resources in the basin. Our efforts involved extensive coordination 
with stakeholders, public input, workshops and hearings across the 
basin. We also consulted with the Missouri River Basin Tribes, and 
included tribal workshops, and meetings with tribal chairmen and tribal 
members. We received comments from tribes, States, and others on the 
alternatives. The revision increases reliability and predictability for 
the Basin. The revised Water Control Plan meets our Tribal Trust and 
Treaty responsibilities, complies with Federal law and achieves a 
balance among the interests on the river.
    We are committed to working collaboratively to preserve cultural 
resources that are exposed due to the drought conditions and reservoir 
fluctuations. In April 2004, we co-signed a programmatic agreement with 
the 16 American Indian Tribes, two Tribal Historic Preservation 
Officers, four State Historic Preservation Officers, the National Trust 
for Historic Preservation, the Advisory Council on Historic 
Preservation and other parties, that commits to the operation and 
management of the Missouri River Mainstem System in compliance with the 
National Historic Preservation Act. The Omaha District is now spending 
approximately $3 million dollars a year for cultural resources. In 
fiscal year 2004, we worked on projects to protect four high priority 
cultural sites, and we have plans to protect three additional sites in 
2005. We will continue to seek additional opportunities to preserve 
cultural resources along the Missouri River.
    We continue to work with the Bureau of Reclamation, the U.S. Fish 
and Wildlife Service, the Bureau of Indian Affairs, the U.S. Geological 
Survey, and the U.S. Department of Agriculture, American Indian Tribes, 
and State and local governments to address the effects of the current 
drought. We are taking actions to help relieve the drought's effects, 
including its effects on the water supply of the Standing Rock Sioux. 
When the Fort Yates raw water intake failed in November 2003, we 
assisted the Bureau of Reclamation by managing water releases and 
operations during intake construction activities, and providing 
equipment and technical assistance during the emergency. We also 
granted emergency authorization pursuant to section 10 of the Rivers 
and Harbors Act and Section 404 of the Clean Water Act to place fill 
material into Oahe reservoir in conjunction with the construction of 
access roads and the placement of a water supply intake line. Over the 
past year we have proactively continued to provide technical assistance 
to the Bureau of Reclamation at their request, including making design 
recommendations, providing surveys of the problem area, and evaluating 
contingency plans and technical reports.
    Further, the Corps has assisted other communities with water supply 
problems brought on by the drought. In anticipation of required 
regulatory permits associated with drought-related challenges to water 
supply intakes in Fort Yates and Mandan, ND and Wakpala, SD, the Corps 
coordinated with appropriate Federal and local agencies. In September 
2004, we awarded a contract to extend and lower the municipal water 
intake for Parshall, ND using our authority under Public Law 84-99 to 
supply municipal water in emergency drought situations.
    The Corps has also spent more than $2 million over the past 2 years 
extending and relocating boat ramps on the upper three reservoirs. The 
Corps has also expanded its efforts to control noxious weeds at the 
upper three projects, which now involve expenditures of approximately 
$500,000 per year.
    The impacts of the current drought are not only being felt around 
the upper three System reservoirs. Water intakes for municipal and 
industrial water supply, including thermal powerplants, on the lower 
Missouri River Basin below the System from Yankton, SD to St. Louis, 
MO, have been negatively impacted in the river reach. Several intake 
owners have had to modify their facilities to deal with the lower river 
flows caused by the drought. More specifically, three intakes in the 
Kansas City vicinity owned by the Kansas Board of Utilities, Water One 
[Johnson County KS] and Kansas City, MO have added low water intakes to 
ensure continued operation at those intakes. Navigation and river 
recreation in the lower river has also been negatively impacted by 
lower releases and shortened navigation seasons.
    We recognize that the continuing drought conditions have resulted 
in hardships for the Standing Rock Sioux and the other tribes, as well 
as for many other of the water users in the Missouri River Basin. We 
remain committed to address those impacts where possible, to meet our 
responsibilities to federally recognized tribes, to serve the 
authorized project purposes, to balance the competing needs of the 
Basin, and to comply with environmental laws including the Endangered 
Species Act. We will continue to work closely with you and all the 
Missouri River Basin stakeholders in that effort.
    We appreciate having the opportunity to be here today, and I look 
forward to hearing the testimony from Tribal Leaders, and any ideas 
they may have to improve our service to the public of the Missouri 
River Basin.
    Mr. Chairman, this concludes my testimony. I would be pleased to 
answer any questions you or the members of the committee might have.
                                 ______
                                 
     Missouri River Basin Water Management Division
                                                  January 14, 2005.

Hon. Daniel K. Inouye,
Vice Chairman, Committee on Indian Affairs,
U.S. Senate, Washington, DC.

    Dear Senator Inouye: Thank you for your letter of November 22, 2004 
as vice chairman of the Committee on Indian Affairs. In that letter you 
requested written responses to a number of questions regarding problems 
with a water supply intake at Fort Yates, ND on the Standing Rock Sioux 
Reservation. Please find responses to each of those questions in the 
attached document.
    I appreciated the opportunity to testify before the committee on 
November 18, 2004 and to provide this additional clarification 
requested in your letter. If you have any further questions or 
comments, please feel free to contact me.

            Sincerely,
                                   William T. Grisoli, Brigadier 
                                       General,
                                   U.S. Army, Division Engineer.

    Question 1. In 1908, the U.S. Supreme Court affirmed that when the 
Indian reservations were created and reserved, the right of the tribes 
to use the water was also reserved. The Court noted, ``fundamentally, 
the United States as a trustee for the Indians, preserved . . . the 
title to the right to the use of water which the Indians had `reserved' 
for themselves. . . '' This decision became known as the Winters 
Doctrine.
    The Corps of Engineers cannot ignore the clear and indisputable 
fact that the tribe has an irrefutable right to water in the basin. It 
is a right that has existed for more than 100 years when the tribes 
signed treaties with the United States and it is a right that was 
reaffirmed by the Supreme Court 96 years ago. Those rights are never 
forfeited.
    Based on this doctrine, does the Corps in its management of the 
dams and reservoirs afford the tribe's use of water a higher priority 
than the other authorized purposes? If not, why not?
    Answer 1. As indicated in our testimony before the committee, 
tribal water rights may be quantified through adjudication or by 
compact with the affected State, ratified by Congress. Most tribes 
within the Missouri River basin, however, have not yet sought to 
quantify their reserved water rights under the ``Winters Doctrine,'' 
although several tribes in Montana and Wyoming are at various stages of 
the quantification process. The Corps does not have the responsibility 
to define, regulate, or quantify water rights, or any other rights that 
the tribes are entitled to by law or treaty. Unless specifically 
provided for by Federal statute, quantification of water rights does 
not entail an allocation of storage at Corps reservoirs. The Corps 
recognizes, however, that the tribes have claims to reserved water 
rights, and will, to the extent possible, continue to operate the 
Mainstem Reservoir System [System] based on that recognition.
    Question 2. In your testimony you indicate that the Corps is 
meeting its trust obligation to the tribe.
    Please reconcile for me how the Corps can state that it is meeting 
its trust obligation if it fails to ensure that adequate water is 
maintained in the reservoir to ensure the tribe has access to water as 
was reserved in the treaties and confirmed by the Supreme Court?
    Answer 2. The System was authorized by Congress to serve eight 
purposes, including water supply, over a wide range of runoff 
conditions. To accomplish this, a large portion of the storage in the 
upper three reservoirs is used to hold water that is used during 
extended drought, like the drought currently being experienced in the 
basin, to continue service to authorized purposes. Releases from 
Garrison Dam will continue to be adequate to serve the water supply 
needs of the community, and we will continue to work with the Bureau of 
Reclamation to ensure intake access. As indicated above and in our 
testimony before the committee, most tribes within the Missouri River 
Basin have not yet sought to quantify their reserved water rights under 
the Winters Doctrine and allocations of System storage for their claims 
to reserved water rights have not been made.
    Question 3. At what point did the Corps become aware of the 
potential threat to the tribe's water supply last year? When the Corps 
became aware, what specific action steps were taken to either avert the 
loss of water or respond to the loss?
    Answer 3. The Corps first became aware of the problem at the Fort 
Yates intake on November 25, 2003 when a staff member from Senator 
Dorgan's Bismarck office contacted us. The U.S. Bureau of Reclamation 
[BOR] operates and maintains the Fort Yates intake, and has the 
authority to assist rural water systems in both an emergency repair and 
a permanent remedy of the problem. At the request of the BOR, releases 
from Garrison Darn were adjusted by the Corps to facilitate the repair 
of the intake. The Corps also issued emergency permits, loaned 
equipment and provided technical assistance as requested. Because the 
BOR has the lead role in regard to this rural water system intake, the 
Corps has, and will continue, to support their efforts through timely 
issuance of required permits, as well as equipment loans and technical 
assistance as requested. We will also continue to work with the BOR and 
others on the development of a contingency plan and a long-term 
solution. The Bureau of Reclamation's contingency plan for the Fort 
Yates intake includes installing a portable pump in the river and 
bringing it online within 9 hours, should a problem with the intake 
occur. Longer-term solutions are being studied by the BOR, but in the 
interim, the Corps will continue to work with the BOR to keep the 
existing intake functional.
    Question 4. On Tuesday of this week, the Omaha District office 
issued a press release citing its work to extend the intake system at 
Parshall as an example of the Corps' efforts to offset the drought 
conditions.
    What specific actions has the Corps taken at Standing Rock to 
offset the impacts of the low water levels? Has the Corps developed any 
action steps to help avert the loss of water again at Standing Rock?
    Answer 4. The Corps initiated a multi-agency contingency planning 
effort with a meeting at Fort Yates on December 13, 2004. Meeting 
participants examined the authorities, roles and responsibilities of 
the various Federal, tribal, and State agencies that can help if 
another emergency arises. The meeting also helped to establish lines of 
communication between the various agencies and participants committed 
to work together on the Fort Yates intake problem and other drought 
issues. The Corps is currently assisting in the preparation of an 
Emergency Action Plan for the Fort Yates community. The plan will 
present a list of actions necessary to provide relief for the Tribe 
during an emergency associated with their water supply system.
    Question 5. Based on your projections for next year's potential 
run-off scenarios, what is the Corps' preliminary forecast on the level 
of Lake Oahe and the impacts of that level on the water and irrigation 
intakes at Standing Rock? What steps are being taken to ensure the 
tribe will not lose access to water based on those projections?
    Answer 5. Absent significantly above normal runoff this year, Lake 
Oahe is not likely to refill substantially in 2005, and Fort Yates will 
continue to experience river conditions at their intake. Releases from 
Garrison will be adequate to serve the water supply needs of the 
community. As described above, the Corps is currently working with the 
Bureau of Reclamation to develop an Emergency Action Plan to respond to 
any emergency associated with their water supply system.
    Question 6. How many Missouri River intakes and/or inland 
reservoirs has the Corps constructed, operates and maintains?
    Answer 6. The Corps has constructed a total of 51 reservoirs in the 
Missouri River basin including the six System reservoirs and 45 
tributary reservoirs. In recent years, the Corps has constructed three 
intakes along the lower Missouri River to pump water into environmental 
restoration sites. The Corps does not own, operate or maintain any 
municipal, rural, industrial or private intakes on the Missouri River; 
however, we have provided emergency assistance to municipalities, such 
as Parshall, ND, for water intakes that fall under the authorities of 
the Public Law 84-99, Flood Control and Coastal Emergencies.

   Prepared Statement of Richard Olson, M.D., Director, Division of 
 Clinical and Community Services, Indian Health Service, Department of 
                       Health and Human Services

    Mr. Chairman and members of the committee:
    Good morning, I am Dr. Richard Olson, director, Division of 
Clinical and Community Services, Indian Health Service [IHS]. I am 
accompanied by Ronald Ferguson, director, Division of Sanitation 
Facilities Construction, Indian Health Service. We are here today to 
discuss the impact of the failure of the Fort Yates municipal water 
system on the Standing Rock Sioux Reservation in November and December 
2003 and its impact on the IHS hospital at Fort Yates, ND service unit.
    Because the water system failure happened quickly, local officials 
were unable to provide advance warning to the public. Since that time, 
the Bureau of Reclamation [BOR], has made certain improvements to the 
water intake system. In addition, we have successfully drilled and 
installed a well on the IHS hospital property grounds that could keep 
our boilers and furnaces in operation and provide water to bathroom 
facilities. However, this water would not be suitable for medical use 
or human consumption.
    I would now like to provide to the committee background on the IHS 
and the events of last year that left the Standing Rock Community 
without water and particularly its impact on the IHS health facility's 
ability to continue to provide health care services to the Standing 
Rock tribal community.
    The IHS, an agency in the Department of Health and Human Services, 
delivers health services to more than 1.6 million federally recognized 
American Indians and Alaska Natives (AI/ANs) through a system of IHS, 
tribal, and urban [I/T/U] operated facilities and programs based on 
treaties, judicial determinations, and Acts of Congress. The mission of 
the agency is to raise the physical, mental, social, and spiritual 
health of AI/ANs to the highest level, in partnership with the 
population we serve. The agency goal is to assure that comprehensive, 
culturally acceptable personal and public health services are available 
and accessible to American Indian and Alaska Native people and 
communities.
    On Sunday November 23, 2003, the Service Unit staff was informed 
that the intake pump and water line into the Missouri River was either 
plugged with silt or frozen or both. The water fines were rapidly 
losing pressure as the municipal water storage tanks were rapidly being 
depleted.
    Immediate steps were taken to make sure the safety of patients was 
not compromised and to implement backup plans to maintain the operation 
of the Fort Yates Indian Hospital. At this time, there were no in-
patients in the Hospital and no patients being seen in the emergency 
department. Without potable running water, we made a decision to send 
the in-patient nursing staff home. The service unit leadership 
conferred with the tribal ambulance staff and advised the emergency 
medical technicians to transport patients directly from the pick-up 
sites to hospitals in Bismarck, ND, and to cease delivery of patients 
to the Fort Yates Indian Hospital. Dialysis services also had to be 
closed until it was again safe to run the dialysis units at the 
Hospital. Emergency staff was sent home and the Hospital closed 
entirely except for the maintenance staff who remained on duty to keep 
the boilers and furnaces up and running. The furnaces were kept running 
by hauling water to the Hospital from a private well located 
approximately 4-5 miles from the Hospital.
    On Monday November 24, due to complete shut-down of water services 
to the city of Fort Yates, the decision was made to completely close 
the hospital after conferring with the tribe. Public statements by 
radio stations were used to inform the public of the water supply 
problem, the closure of the Fort Yates Indian Hospital, and where to 
seek medical services. Arrangements were made to transport dialysis 
patients to the, Med Center One Hospital in Bismarck, ND. All necessary 
medical staff reported to the Indian Health Service Clinic in 
McLaughlin, SD, which is located 25 miles south of Fort Yates, ND, to 
assist in the added number of patients resulting from closure of the 
Hospital. We operated under this plan for 2 days.
    By Wednesday, November 26, 2003, we were able to operate a general 
walk-in clinic for non-invasive procedures using local antiseptic hand-
washing procedures and limited restroom facilities with the use of 
hauled water to the restrooms. The Fort Yates Indian Hospital returned 
to fall operation during the first week of December after running water 
was restored by Tribal Officials and the Bureau of Reclamation, and the 
water was determined to be safe by the Environmental Protection Agency.
    Mr. Chairman, this concludes my statement. Thank you for this 
opportunity to discuss this health related matter. We will be happy to 
answer any questions that you may have.

[GRAPHIC] [TIFF OMITTED] T7093.001

[GRAPHIC] [TIFF OMITTED] T7093.002

[GRAPHIC] [TIFF OMITTED] T7093.003

[GRAPHIC] [TIFF OMITTED] T7093.004

[GRAPHIC] [TIFF OMITTED] T7093.005

[GRAPHIC] [TIFF OMITTED] T7093.006

[GRAPHIC] [TIFF OMITTED] T7093.007

[GRAPHIC] [TIFF OMITTED] T7093.008

[GRAPHIC] [TIFF OMITTED] T7093.009

[GRAPHIC] [TIFF OMITTED] T7093.010

[GRAPHIC] [TIFF OMITTED] T7093.011

[GRAPHIC] [TIFF OMITTED] T7093.012

[GRAPHIC] [TIFF OMITTED] T7093.013

[GRAPHIC] [TIFF OMITTED] T7093.014

[GRAPHIC] [TIFF OMITTED] T7093.015

[GRAPHIC] [TIFF OMITTED] T7093.016

[GRAPHIC] [TIFF OMITTED] T7093.017

[GRAPHIC] [TIFF OMITTED] T7093.018

[GRAPHIC] [TIFF OMITTED] T7093.019

[GRAPHIC] [TIFF OMITTED] T7093.020

[GRAPHIC] [TIFF OMITTED] T7093.021

[GRAPHIC] [TIFF OMITTED] T7093.022

[GRAPHIC] [TIFF OMITTED] T7093.023

[GRAPHIC] [TIFF OMITTED] T7093.024

[GRAPHIC] [TIFF OMITTED] T7093.025

[GRAPHIC] [TIFF OMITTED] T7093.026

[GRAPHIC] [TIFF OMITTED] T7093.027

[GRAPHIC] [TIFF OMITTED] T7093.028

[GRAPHIC] [TIFF OMITTED] T7093.029

[GRAPHIC] [TIFF OMITTED] T7093.030

[GRAPHIC] [TIFF OMITTED] T7093.031

[GRAPHIC] [TIFF OMITTED] T7093.032

[GRAPHIC] [TIFF OMITTED] T7093.033

[GRAPHIC] [TIFF OMITTED] T7093.034

[GRAPHIC] [TIFF OMITTED] T7093.035

[GRAPHIC] [TIFF OMITTED] T7093.036

[GRAPHIC] [TIFF OMITTED] T7093.037

[GRAPHIC] [TIFF OMITTED] T7093.038

[GRAPHIC] [TIFF OMITTED] T7093.039

[GRAPHIC] [TIFF OMITTED] T7093.040

[GRAPHIC] [TIFF OMITTED] T7093.041

[GRAPHIC] [TIFF OMITTED] T7093.042

[GRAPHIC] [TIFF OMITTED] T7093.043

[GRAPHIC] [TIFF OMITTED] T7093.044

[GRAPHIC] [TIFF OMITTED] T7093.045

[GRAPHIC] [TIFF OMITTED] T7093.046

[GRAPHIC] [TIFF OMITTED] T7093.047

[GRAPHIC] [TIFF OMITTED] T7093.048

[GRAPHIC] [TIFF OMITTED] T7093.049

[GRAPHIC] [TIFF OMITTED] T7093.050

                                 <all>


</pre></body></html>
